   Office of Inspector General
   Audit Report




             SUPERFUND


Region 2's Billing of Superfund Oversight Costs

           E1SFF8-02-0007-8100206

                August 13, 1998
Inspector General Division   Eastern Division
 Conducting the Audit:        Boston, MA

Region Covered:              Region 2

Program Offices Involved:    Emergency and Remedial Response Division
                             Financial Management Branch
                             Office of Regional Counsel
MEMORANDUM

SUBJECT:       Report of Audit of Region 2's Billing of Superfund Oversight Costs
               Audit Report E1SFF8-02-0007-8100206

FROM:          Paul D. McKechnie
               Divisional Inspector General for Audit
               Eastern Division

TO:            Jeanne M. Fox
               Regional Administrator
               Region 2

Attached is our final audit report on EPA Region 2's Billing of Superfund Oversight Costs. The
objectives of this audit were to determine whether the Region was (a) timely billing the
responsible party for Superfund oversight costs, (b) successfully collecting untimely billed
oversight costs, and (c) implementing the Agency’s Superfund reforms regarding oversight.

This audit report contains findings that describe problems the Office of Inspector General (OIG)
has identified and corrective actions the OIG recommends. This audit report represents the
opinion of the OIG. Final determination on matters in the audit report will be made by EPA
managers in accordance with established EPA audit resolution procedures. Accordingly, the
findings contained in this audit report do not necessarily represent the final EPA position, and are
not binding upon EPA in any enforcement proceeding brought by EPA or the Department of
Justice.

ACTION REQUIRED

In accordance with EPA Order 2750, you as the action official are required to provide this office
a written response to the audit report within 90 days. Your response should address all
recommendations, and include milestones dates for corrective actions planned, but not completed.

We have no objection to the release of this report to the public. Should you have any questions
about this report, please contact Herb Maletz, Audit Manager at (212) 637-3058 or Steven J.
Weber, Team Leader at (617) 565-3160.
                                                         Superfund Oversight Billings

                   EXECUTIVE SUMMARY


PURPOSE            We performed an audit of Region 2's billing of Superfund oversight
                   costs because of problems noted during our audit of the Agency’s
                   Financial Statements. The objectives of this audit were to
                   determine whether the Region was (a) timely billing the responsible
                   party for Superfund oversight costs, and (b) successfully collecting
                   untimely billed oversight costs, and (c) implementing the Agency’s
                   Superfund reform regarding oversight.


BACKGROUND         The Comprehensive Environmental Response, Compensation, and
                   Liability Act (CERCLA) authorizes EPA to recover its costs from
                   responsible parties to help replenish the Superfund Trust Fund. The
                   law, as amended by the Superfund Amendments and
                   Reauthorization Act of 1986, stipulates that EPA may help fund
                   state government efforts to remediate hazardous waste sites. Both
                   EPA and the states are to comply with the cost documentation
                   requirements found in the Code of Federal Regulations to ensure
                   that the maximum amount of cost is recovered.

                   Oversight costs are incurred by EPA or a state while monitoring
                   cleanup work being performed by responsible parties (RPs) at
                   “Enforcement-lead” Superfund sites. Such costs can include
                   charges for personnel (salary, indirect costs, and travel) as well as
                   charges by contractors. EPA recovers these costs through the use
                   of enforcement documents, i.e., either a Consent Decree (CD) or an
                   Administrative Order on Consent (AOC). An AOC is a legally-
                   binding agreement between EPA and the RPs; a CD is a similar
                   document, except that it is filed in court for a judge’s approval.


RESULTS-IN-BRIEF   In many cases Region 2 did not (a) bill, (b) bill timely, (c) issue
                   accurate bills or (d) successfully collect accumulated Superfund
                   oversight costs from RPs. These conditions were generally caused
                   by the Region’s inadequate management controls for timely billing
                   of oversight costs. Specific contributing factors were (i) other
                   competing priorities, (ii) inadequate tracking systems, (iii) vague or
                   nonexistent billing requirements in AOCs or CDs, (iv) inadequate
                   coordination between program offices and Office of Regional

                                     -i-
                                                        Superfund Oversight Billings

                  Counsel (ORC), (v) difficulty in segregating oversight from other
                  response costs, and (vi) lack of resources.

                  Untimely billings and collections resulted in unnecessary delays in
                  replenishing the Superfund Trust Fund and limited EPA’s ability to
                  timely clean up other priority sites and further protect human health
                  and the environment. Specifically, oversight costs of more that $31
                  million at 89 sites had not been billed as of September 30, 1997. In
                  addition, there were $4 million in disputed oversight costs. Costs
                  not billed for many years represent unrecorded receivables and
                  affect EPA financial statements causing understated account
                  receivable and revenue account balances. Significant amounts of
                  interest that would have accrued to the Trust Fund were also lost or
                  postponed.

                  Region 2 also did not fully implement the reduced oversight reform
                  as described in EPA’s OSWER Directive No. 9200.4-15. Methods
                  for measuring reduced oversight had not been developed. As a
                  result, Region 2 did not document or report any reductions as
                  required at the six sites it selected. Additionally, the Region did not
                  provide RPs with estimated oversight costs for the next year
                  because it had not developed a process to do so. The Region and
                  Headquarters were working to develop the necessary tools to carry
                  out this reform.


RECOMMENDATIONS   We recommend that the Region 2 Administrator improve the
                  oversight billing management controls by (1) prioritizing oversight
                  billings to assure that all pending bills are issued by the end of FY
                  98, (2) ensuring that future oversight costs are billed in accordance
                  with enforcement agreements or within 120 days of the anniversary
                  date, (3) modifying existing oversight billing procedures to include
                  time frames for initiating, assembling, reviewing, and issuing
                  oversight bills by participating offices, (4) expediting
                  implementation of the Superfund Oversight Billing Tracking System
                  making it fully functional and accessible to personnel, and (5)
                  initiating and documenting periodic meetings between ERRD,
                  Finance and ORC officials to improve coordination and timeliness.




                                    -ii-
                                                         Superfund Oversight Billings




REGION 2 RESPONSE    On June 23, 1998 the Region responded that it agreed it should
and OIG EVALUATION   endeavor to issue oversight bills on a timely, regular basis, and
                     noted recent efforts to improve its record in this regard. The
                     Region plans to clear the backlog of old enforcement oversight
                     billings by the end of FY 98, except where case management
                     strategies would be compromised. The response also provided
                     updated information at some sites and other comments. The
                     Region agreed with three of the five oversight billing
                     recommendations, but had concerns about including timeframes in
                     Regional procedures, and documenting meetings.

                     We still believe those two recommendations are necessary and
                     request that the Region reconsider them and provide specific
                     corrective actions and milestone dates for implementing all
                     recommendations. The response has been summarized at the end of
                     Chapter 2 and other comments were inserted in the body of the
                     report. See Appendix A for the complete Regional response. An
                     exit conference was held with Region 2 representatives on July 21,
                     1998.




                                     -iii-
                                Superfund Oversight Billings




This Page Was Intentionally Left Blank.
                                                                                           Superfund Oversight Billings

                                    TABLE OF CONTENTS
                                                                                                                         Page

EXECUTIVE SUMMARY. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

CHAPTER 1 - INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

         PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   1
         BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          1
         SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                           3
         PRIOR AUDIT COVERAGE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     4

CHAPTER 2 - IMPROVEMENT NEEDED IN TIMELY BILLING AND
    COLLECTIONS OF OVERSIGHT COSTS. . . . . . . . . . . . . . . . . . . . . . . . . .                                        5
    BACKGROUND. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              6
    OVERSIGHT BILLINGS NOT ISSUED. . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                   7
    UNTIMELY ISSUED BILLINGS AFFECT COLLECTIONS . . . . . . . . . . .                                                        10
    ERRONEOUS BILLINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       14
    REASONS FOR BILLING DELAYS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                 16
    ENVIRONMENTAL AND FINANCIAL EFFECTS. . . . . . . . . . . . . . . . . . . .                                               19
    PRIOR OIG REPORTS NOTED SIMILAR CONDITIONS . . . . . . . . . . . . .                                                     20
    CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             21
    RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        21
    REGIONAL RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      22
    OIG EVALUATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 23

CHAPTER 3 - OTHER MATTERS - INITIATIVE TO REDUCE
    OVERSIGHT ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

EXHIBITS

         EXHIBIT 1 SAMPLED SITES - NO BILLINGS . . . . . . . . . . . . . . . . . . . . 31
         EXHIBIT 2 SAMPLED SITES - PARTIAL BILLINGS . . . . . . . . . . . . . . . 32
         EXHIBIT 3 PREVIOUS OIG and GAO AUDIT REPORTS . . . . . . . . . . . 33

APPENDICES

         APPENDIX A - REGION 2'S RESPONSE TO DRAFT REPORT. . . . . . . . . 35
         APPENDIX B - DISTRIBUTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 48
                                  Superfund Oversight Billings




This Page was Intentionally Left Blank.
                                                  Superfund Oversight Billings

                       CHAPTER 1

                     INTRODUCTION


PURPOSE      We performed an audit of Region 2's billing of Superfund oversight
             costs because of problems noted during our audit of the Agency’s
             Financial Statements. The objectives of this audit were to
             determine whether the Region was (a) timely billing the responsible
             party for Superfund oversight costs, (b) successfully collecting
             untimely billed oversight costs, and (c) implementing the Agency’s
             Superfund reforms regarding oversight.


BACKGROUND   The Comprehensive Environmental Response, Compensation, and
             Liability Act of 1980 (CERCLA) authorized EPA to recover costs
             from responsible parties (RPs) to help replenish the Superfund
             Trust Fund. The law, as amended by the Superfund Amendments
             and Reauthorization Act of 1986, stipulated that EPA may help
             fund state government efforts to remediate hazardous waste sites.
             Both EPA and states must comply with cost documentation
             requirements found in the Code of Federal Regulations to ensure
             the maximum amount of cost is recovered.

             CERCLA, which created the Superfund program, was designed
             primarily to clean up abandoned hazardous waste sites. Under the
             law, a trust fund was established to pay to clean these sites.
             Additionally, EPA can compel RPs for abandoned or inactive
             hazardous waste sites to clean them up, or the Agency can conduct
             the cleanup and demand payment from RPs.

             The Superfund Trust Fund is used when the Agency performs such
             cleanups. The Fund has been authorized at an aggregate of $15.2
             billion and is primarily supported by crude and petroleum oil taxes,
             the sale or use of certain chemicals, an environmental tax on
             corporations, amounts recovered from RPs, and interest earned. As
             of December 1995, the authority to collect taxes expired, and taxes
             are no longer being collected. At the end of fiscal year (FY) 97, the
             Trust Fund reflected an unappropriated balance of $2.6 billion. In
             FY 97, Congress appropriated $1.4 billion for the Superfund
             program to continue. For FY 98, $2.15 billion was appropriated

                              -1-
                                    Superfund Oversight Billings

($1.9 billion from the Fund and $250 million from general
revenues). However $650 million of the $1.9 billion was not made
available contingent on Superfund reauthorization enactment.
Currently, the Fund receives income primarily from RP recoveries
and interest.

EPA incurs oversight costs while monitoring cleanup work
performed by RPs at “Enforcement-lead” Superfund sites. Such
costs can include EPA personnel charges (salary, indirect costs, and
travel), as well as charges by EPA contractors or state employees.
Such recoveries are to be accomplished by use of enforcement
documents, either a Consent Decree (CD) or an Administrative
Order on Consent (AOC). An AOC is a legally-binding agreement
between EPA and the RPs; a CD is a similar document, except that
it is filed in court for a judge’s approval. Although EPA is
responsible for pursuing reimbursement, it has only recovered from
RPs a fraction of the monies it has spent.

The Chief Financial Officers Act of 1990 requires that an Agency
develop and maintain an integrated accounting and financial
management system that provides (1) complete, reliable, consistent,
and timely information responsive to the financial information needs
of Agency management and (2) development and reporting of cost
information. OMB Circular A-127 also requires an Agency’s
financial management system to provide reliable and timely
information on amounts owed the government.

EPA Headquarters July 10, 1997, FY 98 Superfund Work Planning
memorandum discusses various Superfund activities including a
new reporting measure which should capture the status of Regional
progress towards sending timely and complete oversight bills. This
measure will incorporate the number of sites with up-to-date and
complete oversight billings and the number of sites where such
billings are not as yet required.

An April 7, 1998 joint Plan for Achieving Timely Oversight Billing
Under CERCLA issued by the Comptroller and the Office of Site
Remediation Enforcement enlisted Regional support in
implementing the Agency’s plan to achieve timely Superfund
oversight billings. EPA’s goal is to become current in oversight
billing by September 30, 1998, thereby, preventing a potential
FMFIA material weakness and maintaining the fiscal health and

                 -2-
                                                    Superfund Oversight Billings

              integrity of the Superfund program. The memorandum states that
              in order to be current in our oversight billings by September 30,
              1998, regions must have billed the parties for all known billable
              costs on their oversight cases within 120 days of the anniversary
              date specified in the CD or AOC. Also, following this billing
              process and establishing an account receivable will ensure timely
              recovery of oversight costs. Accordingly, each Region was
              required to submit an action plan by April 30, 1998.


SCOPE AND     We performed this audit according to the Government Auditing
METHODOLOGY   Standards (1994 Revision) issued by the Comptroller General of
              the United States as they apply to economy and efficiency program
              audits. Our review included tests of documents and other auditing
              procedures we considered necessary. No other issues came to our
              attention which we believe warranted expanding the scope of the
              audit.

              To accomplish our objectives we interviewed Region 2 Emergency
              and Remedial Response Division (ERRD), Finance and Office of
              Regional Counsel (ORC) personnel. These individuals included
              branch chiefs, Finance and Program office cost recovery specialists,
              remedial project managers, and attorneys. We reviewed individual
              enforcement documents (AOCs and CDs), Superfund oversight
              inventory reports, CERCLA enforcement document distribution
              procedures, Superfund cost recovery procedures, oversight billing
              reports, billing status reports, Memoranda of Understanding
              documents, cost summary packages, and individual site files.

              To determine reasons why the Region was not billing in a timely
              manner in accordance with terms and conditions of the consent
              documents, we reviewed 10 judgmentally selected cases. Five of
              these cases were selected due to the lack of billing during the life of
              the consent document. The other five cases were reviewed based
              upon evidence of limited or sporadic billing patterns.

              To determine the accuracy of the issued bills, we also reviewed the
              management controls regarding the elimination or reduction of
              oversight costs from bills. In addition, we examined the controls
              involving how bills were authorized and assembled. We then
              judgmentally selected three revised bills for additional review. We


                                -3-
                                                   Superfund Oversight Billings

              did not review the internal controls associated with the input of
              information into the Region’s Integrated Financial Management
              System or any other automated recorded system.

              To evaluate the extent to which the Region had implemented the
              Superfund reforms outlined in the Agency’s July 31, 1996 OSWER
              Directive No. 9200.4-15, we interviewed appropriate Regional
              officials, reviewed and analyzed correspondence submitted to
              EPA’s Headquarters Superfund Office, and interviewed
              Headquarters Superfund officials.

              We also reviewed Region 2's Fiscal Year 1994-1997 Annual
              Assurance Letters to determine whether the oversight billing area
              was identified as a potential weakness during their annual Federal
              Managers’ Financial Integrity Act (FMFIA) self-evaluation. The
              Region did not identify any material weaknesses or vulnerabilities
              pertaining to Superfund oversight billings or collections.

              Our review was conducted from January 7, to March 31, 1998.


PRIOR AUDIT   Previous EPA Office of the Inspector General (OIG) and General
COVERAGE      Accounting Office (GAO) audit reports have identified concerns
              with Agency delays in billing and recovering costs from responsible
              parties. These reports have been included as Exhibit 3.




                               -4-
                                                          Superfund Oversight Billings

                               CHAPTER 2
  IMPROVEMENT NEEDED IN TIMELY BILLING AND COLLECTION OF
                    OVERSIGHT COSTS



What Was Found        Region 2 did not timely bill and collect accumulated Superfund
                      oversight costs. Further, the Region did not recover cleanup
                      oversight costs from responsible parties (RPs) for as long as 11
                      years. Also, when delayed bills for collection (BFC) were sent, RPs
                      disputed the amounts and collections were affected. In addition, at
                      least 17 of the 68 oversight BFCs issued since 1989 (25 percent)
                      contained errors and amounts were reduced by approximately $5.4
                      million.

Why It Occurred       These conditions were generally caused by the Region’s inadequate
                      management control system for timely billing of oversight costs at
                      remedial and removal sites. Specific contributing factors were (i)
                      other competing priorities, (ii) inadequate tracking systems, (iii)
                      vague or nonexistent billing requirements in AOCs or CDs, (iv)
                      inadequate coordination between program offices and Office of
                      Regional Counsel (ORC), (v) difficulty in segregating oversight
                      from other response costs, and (vi) lack of resources.

What Was the Effect   Untimely oversight billings and collections resulted in unnecessary
                      delays in replenishing the Superfund Trust Fund. It also limited
                      EPA’s ability to timely clean up other priority sites and further
                      protecting human health and the environment. More specifically,
                      oversight costs of more than $31 million at 89 sites had not been
                      billed to RPs as of September 30, 1997. In addition, there were $4
                      million in disputed oversight costs. Unbilled oversight costs also
                      affected EPA’s financial statements and caused understatements in
                      the account receivable and revenue account balances. Significant
                      amounts of interest that would have accrued to the Trust Fund
                      were also lost or postponed.




                                       -5-
                                                          Superfund Oversight Billings




Background           An important Superfund program objective is to recover EPA funds
                     used to clean up a site. This includes costs EPA incurs to oversee
                     clean up activities. Recovery is initiated through negotiation with
                     or legal action against a RP. Judicial and non-judicial actions
                     (orders) establish EPA’s legal right to be reimbursed by the RP for
                     oversight costs. Based on these orders, Finance prepared oversight
                     bills and established an accounts receivable.

                     EPA Headquarter’s January 24, 1996 Revisions to Core Financial
                     Management Measures revised the Superfund Cost Recovery
                     oversight billing measure. It required preparation of oversight bills
                     within 120 days of the anniversary date of the CD or AOC, or
                     within the time frame specified in the document, or as directed by
                     the program office. The revision was necessary because many CDs
                     or AOCs were silent on when oversight costs should be billed.
                     Also, several Financial Management Offices expressed concern over
                     the oversight billing measures.

                     In some cases, the CD or AOC specifically stated that EPA will bill
                     annually whereas recent documents mostly use the term
                     “periodic” billing. However, we believe and ORC officials agreed
                     that annual billing is the prudent practice to enable entities to
                     undertake a meaningful review of costs incurred.

                     The Superfund Cost Organization and Recovery Enhancement
                     System (SCORES) is a database management system used to
                     organize and track Superfund costs for a specific site. The
                     SCORES report is combined with the supporting cost and technical
                     documentation to yield a cost recovery package.

Region 2             The Region issued enforcement documents with oversight
Oversight Billings   reimbursement provisions to 115 Superfund sites. However, from
                     April 1989 to September 30, 1997, the Region issued BFCs to only
                     68 sites (60 percent). As of September 30, 1997, Region 2's FY
                     1997 Unbilled Oversight Closing Balance Calculation listed $31.5
                     million pertaining to 89 Superfund sites as unbilled (increase of $2.1
                     million since September 30, 1996) as shown below:




                                      -6-
                                                          Superfund Oversight Billings

                            Total Oversight Costs Incurred                $62.1 million
                            Total Oversight Costs Billed                   30.6 million
                            Outstanding Unbilled Oversight Costs          $31.5 million

                     These 89 sites have not received BFCs for as long as 11 years. In
                     fact, 56 of these sites (63 percent) have not had bills issued for
                     more than five years since the effective date of the document.
                     The original billed amounts were $36 million, but 17 of the 68
                     BFCs (25 percent) issued were reduced.

Region 2 FY 98       Prior to FY 98, Region 2 oversight billings were a low priority.
Initiatives          However, since the first quarter of 1998 the Region has been trying
                     to focus on the backlog of oversight bills. ERRD officials indicated
                     they were committed to consistently issue 10 to 12 oversight bills
                     per month. To meet this commitment the Region had been
                     preparing priority lists, and workgroups and periodic meetings have
                     taken place between various offices. There were no schedules for
                     the meetings and minutes were not taken.

                     To effectively manage and track oversight billings the Region
                     recently developed a Superfund Oversight Billing Tracking System
                     (SOBTS) based on a Region 3 system. This system is currently
                     being used by the ERRD Resource Management/Cost Recovery
                     Section Chief. Although historical oversight billing data has
                     generally been entered into the system, it has not yet been fully
                     functional. Our review of sample reports concluded that once the
                     system becomes fully operational it could be a useful tool in
                     managing oversight billings.

                     The ERRD Oversight Billing Coordinator stated that the Region
                     plans to issue all pending oversight bills involving old enforcement
                     documents by the end of FY 98. Also, a November 24, 1997
                     response, pertaining to the FY 97 Financial Statement Audit OIG
                     position paper, stated that ERRD was directed to clear the backlog
                     of overdue oversight bills within FY 98. However, our review of
                     the Region’s February 25, 1998 “Oversight Billing Status Report”
                     disclosed that only five BFCs had been issued in FY 98.


Oversight Billings   The Agency estimated that as of September 30, 1997, it had $162
Not Issued           million of unbilled oversight costs, making it the third largest

                                      -7-
                                               Superfund Oversight Billings

         Superfund asset after Trust Fund Balances at Treasury and Non-
         Federal Accounts Receivable. We realize that the $162 million
         represents costs that should have been billed, as well as those not
         yet due to be billed. Unbilled Superfund oversight costs have been
         a continuing problem affecting EPA’s financial statements.

         The Region had not sought to recover oversight costs from RPs as
         stipulated in settlement documents. The Region’s estimated
         oversight costs of $31.5 million represent approximately 20 percent
         of the Agency total. We reviewed five sites with AOCs issued
         between October 8, 1987 and June 28, 1993, and unbilled oversight
         costs of more than $4.4 million as of September 30, 1997.

            Site                 Date of AOC             Unbilled Amount
             1                    5/27/88                  $ 839,891
             2                    9/27/89                      909,332
             3                    10/8/87                      950,170
             4                      6/7/88                     702,422
             5                     6/28/93                  1,043,676
                                                           $4,445,491
         A brief description of the five sites follow (See Exhibit 1 for a
         summary of details):

Site 1   The May 27, 1988 AOC stated that the RP will reimburse EPA for
         oversight costs. Also, at the end of each fiscal year, EPA will
         transmit an accounting of all costs incurred during the previous
         year. However, as of March 1, 1998 (almost 10 years) the Region
         had not billed any oversight costs. As of September 30, 1997,
         unbilled costs were $839,891. During this period various SCORES
         reports were generated for different amounts, but a BFC was never
         issued.

         The response to the draft report indicated that on April 7, 1998 the
         RPs were billed $894,800.87 and made a partial payment of
         $776,558.74. The RPs challenged the remaining costs because they
         were not attributable to EPA’s oversight. Region 2 agreed that it
         erroneously billed certain unrelated costs and revised the original
         bill to $776,593.64. The remaining balance was paid on June 10,
         1998.


                           -8-
                                             Superfund Oversight Billings

Site 2   On September 27, 1989 EPA issued an AOC, followed by a CD
         which was signed on April 2, 1990. Both the AOC and CD indicate
         that EPA will “periodically” transmit accounts of the costs incurred
         by EPA. As of March 1, 1998 (almost nine years) the Region had
         not sent a BFC to the RP. As of September 30, 1997, the Region
         has estimated unbilled oversight costs of $909,332.

Site 3   The October 8, 1987 AOC required EPA to transmit an annual
         accounting of all costs incurred. As of March 1, 1998 (10½ years)
         the Region had not sent a BFC (unbilled oversight amount as of
         September 30, 1997 was $950,170). Various SCORES reports for
         different amounts were prepared in 1994 but no action was taken.

         EPA is trying to negotiate a total settlement. The July 9, 1997
         SCORES showed $1,244,845 for all costs (October 9, 1987
         through April 30, 1997). EPA’s August 8, 1997 settlement offer
         was to accept $646,935, a reduction of over one million dollars.
         Response costs were $1.2 million mentioned above plus $422,642
         interest (total of $1,667,487). The response to the draft report
         indicated that a CD settlement was expected to be signed by late
         June 1998 and the compromised amount was consistent with
         Agency policy.

Site 4   The June 7, 1988 AOC stated that, EPA would transmit an annual
         accounting of all costs incurred during the previous year. On May
         7, 1993 another AOC was issued (removal action) and the
         Respondent agreed to reimburse EPA for response costs (including
         oversight costs) incurred. There was no billing timeframe
         information mentioned in this AOC. Various SCORES reports
         were prepared during 1995 and 1996, but no actions were taken. A
         BFC had not been issued as of March 1, 1998 for estimated
         oversight costs of $702,422 (as of September 30, 1997).
         Negotiations are ongoing with the RP.

Site 5   The June 28, 1993 AOC required EPA to “periodically” transmit
         oversight billings. As of March 1, 1998 (five years) no BFC was
         issued and the Region estimated $1,043,676 of unbilled oversight
         costs. EPA and the RP are currently attempting to negotiate a
         global settlement of all past response and oversight costs.




                          -9-
                                                       Superfund Oversight Billings

                  In July 1997, Finance prepared a cost history ($1,806,966) which
                  included a sub-schedule showing costs of $468,057. ORC
                  indicated $1.8 million was past costs, while $468,000 was primarily
                  oversight. There were other costs of $100,000 and other
                  adjustments, and estimated the total package to be $3.1 million
                  ($1.8 million past costs, $500,000 oversight and $770,000
                  interest). EPA has begun to negotiate the whole universe of costs
                  and is not thinking of separate oversight billings. Although total
                  costs were $3.1 million, EPA proposed a settlement of $1.8 million
                  for past response and oversight costs. We were advised that a CD
                  was signed on May 12, 1998, and the basis of compromise was
                  appropriate and documented.

                  In conclusion, the Region had not sought to recover $31.5 million
                  oversight costs from RPs as stipulated in settlement documents.


Untimely Issued   Untimely billings had a direct effect on the rate of collection.
Billings Affect   Because the billing period encompassed as long as seven years,
Collections       RPs generally delayed payment, challenged the “stale” costs, and
                  requested extensive supporting documentation to support billed
                  amounts. Collections were further delayed while the Region
                  responded to the RP’s claims, participated in conversations to
                  resolve differences, and gathered necessary documentation.

                  Region 2 issued BFCs many years after the effective date of the
                  document. As of September 30, 1997 there were eight sites with
                  disputed billings totaling approximately $4 million which will result
                  in reduced or delayed collections. We selected for review five of
                  these sites with documents issued between1986 and 1990.

                  Region 2's untimely billings (between 1991 and 1996) for the five
                  sites selected amounted to $2.2 million. However, as of March 1,
                  1998 it had only collected $203,020 ($145,000 + $58,020), which
                  was less than 10 percent of the billed amount. While some
                  additional amounts might be collected in the future we believe that
                  a substantial amount will be forgiven or reduced through negotiated
                  settlements (See Exhibit 2 for further details).




                                   -10-
                                              Superfund Oversight Billings


                                    DATE                        Amount
          Site          Document             BFC                 Billed
          A              6/02/89          5/13/96 (1)                $
                                                              622,370

          B              11/28/89         4/04/95 (1)
                                                                      488,86
                                                                      9

          C               4/30/86         2/05/91 (1)
                                                                      468,74
                                                                      3

          D               6/30/89         3/13/96                 137,572

           E              9/28/90         2/26/96 (2)
         467,481
                                                              $2,185,035

         (1) Revised BFCs were sent from two to four months later.
         (2) BFC resent.

Site A   The June 2, 1989 AOC required EPA to provide the RP with a
         “periodic” accounting of costs. However, it took EPA five years
         (July 18, 1994) to furnish the RP with an estimate of oversight
         costs ($438,992). The actual BFC ($622,370) was not sent until
         May 13, 1996 for the period June 3, 1989 to March 7, 1996.
         Because the bill was addressed to the RP’s attorney, the bill was
         reissued on July 10, 1996 (seven years from the AOC date).

         The RP disputed the bill because it took EPA seven years to
         provide an accounting of oversight costs. The RPs attorney’s
         October 17, 1997 letter stated:

                 The project was nearing completion, five years into the
                 study, when EPA for the first time revealed that its expenses
                 were approximating the study costs. As you know, the
                 AOC requires that EPA produce a periodic accounting of
                 its costs, which my clients understood to mean a quarterly


                          -11-
                                             Superfund Oversight Billings

                accounting. Had such an accounting been made by EPA,
                my clients would have had numerous opportunities to work
                out with EPA a less costly approach to the project. These
                opportunities were denied by EPA’s failure to meet this
                AOC obligation.

         The RP’s attorney used the billing delay and other considerations to
         reduce the amount. As of January 30, 1998, the Accounts
         Receivable outstanding balance was $679,036 (includes interest).
         However, a draft settlement for $575,000 has been orally accepted.
         As a result, EPA has negotiated away $104,036 ($679,036 -
         $575,000). The RPM also stated that an additional $120,566 in
         unbilled administrative costs were negotiated as part of this
         settlement. In effect, EPA forfeited a total of $224,602.

Site B   Although the CD pertaining to oversight costs was effective
         November 28, 1989, it took the Region almost five and a half years
         to issue the BFC (April 19, 1995) in the amount of $443,939. It
         took another year before a revised bill ($488,869) was issued (July
         11, 1996) for oversight costs incurred between November 28, 1989
         and March 14, 1996. Also, additional oversight costs of $42,548
         incurred as of September 30, 1997 have not been billed.

         On August 21, 1996, the RP invoked dispute resolution procedures
         since most costs were inconsistent with the CD terms which
         required annual billings. The RP has alleged that it was also
         confused by certain past response costs outlined in a 1994 CD. On
         September 30, 1996, EPA received $58,020 from a different RP
         which was applied to this bill. The RP’s January 22, 1997
         Statement of Position mentioned that the United States should
         dismiss its claim for oversight costs because it did not provide an
         annual billing of those costs as required by the 1989 CD.

Site C   The April 30, 1986 AOC mandated annual oversight billings. On
         February 5, 1991 (almost five years later) a BFC for $468,743 was
         issued for the period April 1986 to December 1990. The RP
         refused to pay because EPA had not billed annually, included five
         years of costs incurred, and the untimely accounting did not
         demonstrate that costs were recoverable.

         The RP Counsel’s March 14, 1991, letter to Region 2 indicated


                         -12-
                                               Superfund Oversight Billings

         particular concern with EPA’s untimely accounting (costs incurred
         over a five to six year period). The Counsel stated:

                The Order makes it clear that an accounting must be
                submitted at the end of each year. One purpose of this
                annual deadline is to enable the firm to undertake a
                meaningful review of the costs allegedly incurred. It is very
                difficult to audit costs that are as stale as those set forth in
                this accounting. Compounding the problem of stale costs,
                the accounting does not adequately identify which costs
                were incurred in which years.

         The RP’s May 3, 1991 correspondence emphasized EPA’s
         mandatory duty to serve annual demands for cost
         reimbursement and believed they were seriously prejudiced by the
         delayed billings. On June 3, 1991 EPA issued a revised bill
         ($445,806 plus $11,672 interest) and the RP made a partial
         payment of $145,000.

         EPA has been trying to negotiate a global settlement and expected
         these negotiations to be completed by December 31, 1997 (revised
         to May 7, 1998). As of February 12, 1998 outstanding oversight
         costs were $437,209. Also, additional oversight costs of $297,133
         have not been billed as of September 30, 1997. On June 23, 1998
         Regional officials stated that remaining oversight payments were
         resolved in the global settlement and a BFC will be issued for
         oversight costs that have not been billed.

Site D   The AOC was signed on June 30, 1989 and almost seven years
         passed before a March 13, 1996 BFC was issued ($137,572) for
         oversight costs incurred between July 1, 1989 and January 28,
         1993. The BFC included $15,000 of past response costs. The
         Region believes, but could not document that one reason for the
         delayed BFC was an investigation to determine whether another
         party could be pursued as an RP. The RP refused to pay due to its
         financial condition and the large amount of oversight compared to
         other clean-up costs. Two years have passed since the BFC, and
         ORC could not provide the expected resolution date. Although the
         corporation was dissolved and the owner relocated to Florida, ORC
         expects to collect a portion of the billed costs.



                         -13-
                                                          Superfund Oversight Billings

                     The ORC attorney acknowledged that annual billings would have
                     been a better practice, and the $15,000 past response costs should
                     have been billed separately in 1989. On June 14, 1996, the RP’s
                     attorney stated that he had the authority to pay the $15,000.

Site E               Although the AOC was entered on September 28, 1990, the Region
                     took more than five years to issue the BFC (February 26, 1996)
                     covering costs of $467,481 incurred between February 12, 1990
                     and April 2, 1994. The BFC was resent to the RP on April 22,
                     1996. The RP refused to pay claiming removal costs were too
                     high, and subsequent settlement discussions were not successful.
                     On June 23, 1998 we were advised that DOJ settled the matter for
                     $350,000 based primarily on litigation risks. The Region believed
                     only $45,000 of the original amount pertained to oversight costs.
                     However, review of Finance records and ORC and ERRD
                     correspondence indicated the entire amount represented oversight
                     costs, and were recorded as such in IFMS.

                     In conclusion, Region 2's untimely oversight billings resulted in
                     collection delays and RP disputes which adversely impacted the
                     timely replenishment of the Superfund Trust Fund and EPA’s ability
                     to clean up other priority sites.


Erroneous Billings   Between 1989 and September 30, 1997 Region 2 revised 17 BFCs
                     and a total of $5.6 million of erroneous costs were eliminated. Our
                     review of three of these revised BFCs disclosed various erroneous
                     costs were included in the original bill. Such costs included
                     previously paid or non-oversight amounts, and amounts without
                     adequate supporting documentation. As a result, the Region had to
                     retract or revise the billings, remove costs inadvertently included,
                     and provide additional documentation to substantiate the validity of
                     other costs. Although the revised amounts were eventually paid,
                     the time needed to correct the original billings caused delayed
                     reimbursement to the Trust Fund.

                     RPs challenged the credibility of the billing process based on these
                     errors. A Regional attorney assigned to negotiate settlements of
                     these costs advised that in some cases the Region was willing to
                     compromise certain costs because of concerns over the impact that
                     inaccurate billings would have on the creditability of other costs.


                                      -14-
                                               Superfund Oversight Billings

         The following summarizes our review of the three sampled sites.

Site S   On July 25, 1996 the Region billed the RP more than $211,000
         which had been previously paid. This was caused by the Region’s
         inadequate review of the content of the bill. As a result, the Region
         had to retract the original bill, and provide a revised bill eliminating
         previously paid costs. In addition, the Region also compromised
         certain costs over concerns that the RP was willing to litigate the
         validity of the oversight costs.

         The original oversight BFC included contractor costs for
         performing the initial Remedial Investigation and Feasibility Study
         and oversight of the RP-performed Initial Remedial Measures.
         These costs had been settled during the negotiation of the May 19,
         1993 Consent Decree and payment of $1.3 million of pre-December
         30, 1991 response costs.

         The RP’s response to the bill stated “EPA’s present demand for
         response costs seems to contain claims for reimbursement of
         charges that must date back to the mid-1980's. . . Obviously, if
         EPA’s present demand for response costs includes costs previously
         paid by the Respondents, then the EPA Demand is flawed by
         material accounting errors.” The Region responded that certain
         charges were erroneous and the revised bill omitted those costs.

Site M   On March 31, 1995 the Region billed more than $83,000 which had
         been previously paid, reduced the “annual allocation expense” by
         $12,304, and compromised interest charges of over $47,000. This
         was caused by the Region’s inadequate review of the content of the
         bill and the failure to provide timely supporting documentation. As
         a result, the Region retracted the original bill, and provided a
         revised bill eliminating costs already paid and accumulated interest.

         Although the RP requested an accounting of costs, EPA’s final
         submission was not received until almost one year after the initial
         bill. The revised bill removed prior costs of $83,000 and reduced
         the annual allocation by $12,303. The Region reduced the “annual
         allocation expense” for a five-year period after the RP disputed the
         validity of the billed amount, and provided Congressional testimony
         to support the reduction to 80 percent of the last final rate. The RP
         also believed that accrued interest was unreasonable and unjust
         when EPA admittedly did not produce proper documentation and

                          -15-
                                                             Superfund Oversight Billings

                      made a material error in its original invoice. The Regional
                      attorney responsible for Sites S and M advised that inaccurate billed
                      costs put the whole credibility of the billing


                      process in question, and delayed responses to requests for
                      documentation resulted in accrued interest that might be
                      compromised.

Site F                The Region revised the original BFC by $110,757 because it had
                      previously included certain ineligible or previously recovered costs.
                      Specifically, the revised bill eliminated (i) technical assistance grant
                      of $36,707, (ii) payroll costs of $11,981, (iii) indirect costs of
                      $30,368, (iv) additional payroll costs of $29,760, and (v) a $1,941
                      accounting error. These reductions were caused by inadequate
                      accounting of site costs. Therefore, the Region was required to
                      retract the original bill, and provide the RP with a revised bill.

                      Our review of these revised BFCs disclosed erroneous costs
                      included in the original bill. These costs included previously paid or
                      non-oversight amounts, and amount without adequate supporting
                      documentation. As a result, the Region had to retract or revise the
                      billings, remove costs inadvertently included, and provide additional
                      documentation to substantiate the validity of other costs. The
                      Region needs to improve their review process to ensure that bills
                      sent to RPs are accurate.


Reasons for           Billing delays were generally caused by the Region’s inadequate
Billing Delays        management controls for timely billing of oversight costs at
                      remedial and removal sites. Factors such as other competing
                      priorities, inadequate tracking systems, vague or non-existent billing
                      requirements in AOCs or CDs, inadequate coordination between
                      program offices and ORC, difficulty in segregating oversight from
                      other response costs, and lack of resources contributed to the delay.

General Discussions   We had various conversations with RPMs and attorneys involved
with RPM’s            in the10 sites reviewed. Virtually all interviewed personnel
and Attorneys         mentioned various Regional billing process weaknesses especially
                      the low priority and lack of urgency to issue annual or periodic
                      BFCs. Most personnel stated that it would have been better to bill


                                       -16-
                                                             Superfund Oversight Billings

                       annually or at least years earlier. Some RPMs believed that Finance
                       personnel should be responsible for preparing billings, and
                       separately code oversight costs in some manner.

                       Many RPMs mentioned weaknesses in EPA’s tracking system for
                       oversight costs. Specifically, RPMs and supervisors were not
                       always aware of specific billing requirements. Some RPMs stated
                       that bills were not issued because supervisors never asked them to
                       do so. Also RPMs having a vital role in determining oversight
                       costs stated that EPA’s systems could not always generate specific
                       reports to track or separate unbilled oversight from other costs.
                       Therefore, RPMs had to spend a great amount of time to manually
                       ascertain oversight costs. We understand that since FY 96, the
                       Integrated Financial Management System (IFMS) has the capability
                       to track and report billed oversight costs through activity/action
                       codes. However, tracking systems are of limited benefit if bills are
                       not sent out in a timely manner.

Specific Discussions   The Site 1 RPM stated that she had been working on other priority
with Five RPMs         sites, and there was no rush to issue annual oversight bills. She had
                       received various SCORES reports and stated that it would have
                       been better if the Region had billed annually if there was available
                       time. She believed that Finance should prepare oversight billings,
                       since RPMs were not familiar with such areas as indirect cost rates.
                       She only confirms appropriate costs, and it would be useful if
                       Finance coded oversight costs separately to make billing easier. In
                       addition, other site work has a priority over oversight billing.

                       The Site 2 RPM agreed that it made sense to bill oversight costs
                       earlier, but due to the different levels of work at this complex site,
                       the first priority was cleanup activities. He has been overwhelmed
                       with work, has not had time to carefully review the initial SCORES
                       report, and did not know when he could initiate the BFC. He also
                       stated that scientists and engineers are not the best people to be
                       involved in cost recovery activities.

                       The Site A RPM stated there were no annual billings as resources
                       to prepare billings were labor intensive and other priorities existed.
                       He thought that a cost estimate provided to the RP’s attorney in
                       June 1994 was sufficient until an actual May 13, 1996 bill was
                       issued. He agreed that annual billings would have been better.


                                        -17-
                                                           Superfund Oversight Billings

                      The Site B RPM believed that RPMs were engineers and not
                      geared towards accounting and billing functions. On-going clean
                      up, litigation, and community relations were priorities and oversight
                      billings were not. The RPM stated that oversight costs were not
                      significant in 1991 and documentation was not readily available.
                      Also, the Region did not have the capability to generate specific
                      reports to prepare the BFC and segregate oversight costs.

                      The Site C RPM believed it was common not to provide annual
                      billings even though the Order may have mandated such billings.
                      Also, EPA did not have an adequate tracking system to alert the
                      RPM to initiate a bill. He did not believe EPA should commit an
                      exorbitant amount of resources to annual billings which may result
                      in the recovery of little money, when resources committed every
                      few years would likely result in greater cost recovery.

                      These discussions clearly show that Region 2 should reevaluate the
                      priority given to oversight billings. We believe that immediate
                      actions must be implemented to remedy this problem.

Inadequate Regional   The Region’s December 1992 Oversight Billing Superfund Cost
Procedures            Recovery procedures require Finance to generate a draft SCORES
                      report for ERRD within five working days. ERRD officials
                      including Remedial Project Managers (RPM) and On-Scene
                      Coordinators (OSC) consult with ORC, identify all charges, and
                      forward “marked up” reports to Finance for review and
                      reconciliation. When ERRD and ORC determine proper charges an
                      account receivable for the billed oversight costs is established.

                      Although the Procedures outline oversight billing responsibilities,
                      time frames are not specified for many activities. For example,
                      there are no time frames for assembling and analyzing billing data
                      and for issuing an oversight bill. We acknowledge that each site is
                      different and many have complex issues. However, we strongly
                      believe that general time frames with some flexibility should be
                      incorporated depending on the different unique areas.

                      The Procedures discuss the RPMs initiation of the billing process by
                      requesting SCORES reports, but do not address the significant
                      period of time that passes before the process is initiated. We
                      believe the procedures should be modified to include RPM and


                                       -18-
                                                            Superfund Oversight Billings

                       OSC oversight monitoring, reviewing and billing responsibilities
                       upon receipt of the enforcement document. General time frames
                       should be incorporated for managers to measure the effectiveness
                       of its oversight billing program as required by the Government
                       Performance and Results Act (GPRA) of 1993.


Environmental and      There are both environmental and financial effects that result from
Financial Effects      the conditions we describe. Untimely oversight bills adversely
                       affect the use of the Superfund Trust Fund to effectively cleanup
                       the Region’s Superfund sites. This lack of Regional priority to
                       collect expended funds postpones the replenishment of monies
                       drawn from the Fund. As a result, the environmental threat to
                       human health is increased because the Agency’s ability to address
                       identified hazardous waste sites is limited.

Effect on EPA’s        For Superfund sites involving oversight reimbursement
Financial Statements   provisions, periodic bills are to be issued to RPs and an accounts
                       receivable recorded in the Agency’s financial system. Similarly,
                       collections are to be recorded to increase the corresponding
                       revenue account balance. However, when EPA incurs oversight
                       costs, but does not issue bills, receivables are not recorded and
                       funds are not collected. Thus, unbilled oversight costs cause an
                       understatement in the account receivable and revenue account
                       balances. If costs remain unbilled for years, financial statement
                       balances for corresponding fiscal years continue to be misstated.

                       Due to the Region’s lack of action, oversight bills pertaining to
                       many Superfund sites were not issued for many years. In FY 97
                       Headquarters required the Regions to accurately estimate their
                       unbilled oversight amount. Region 2 had estimated more that $31
                       million unbilled oversight costs, which in essence was its estimated
                       understated accounts receivable amount. Also, since no receivables
                       were recorded, funds remained uncollected for years and revenues
                       were understated. ERRD and ORC officials stated that certain
                       Regional unbilled oversight amounts were not accurate because
                       some estimated amounts included past response costs. This
                       inaccuracy could be significant and could cause significant
                       adjustments in EPA’s financial statement balances.

Lost or Postponed      When the oversight bill is sent to an RP who does not make a


                                        -19-
                                                         Superfund Oversight Billings

Interest            timely payment, interest will accrue from the payment demand date
                    to the due date. Therefore, delays in issuing BFCs, followed by
                    delayed or non-payment increase the amount of lost interest. Also,
                    if a bill is not sent or untimely sent, EPA will lose a substantial
                    portion of interest because RPs rarely pay upon demand.

                    In essence, the billing delay provides RPs an interest free loan from
                    the date the annual billing could have been issued. EPA usually
                    waits until most site work is completed before it negotiates with
                    RPs for repayment because it combines these efforts to reduce legal
                    and other enforcement costs. As a result, this practice can
                    postpone interest charges for several years which affects Superfund
                    Trust Fund balances. Also, in many cases, the accumulated interest
                    is either entirely or partially waived to reach a negotiated
                    settlement. Although the Region believes such compromise is in
                    the Agency’s best interest, we believe that more timely billings
                    would reduce the waived interest.


Prior OIG Reports   Our March 29, 1990 audit report, Review of Region 2's Oversight
Noted Similar       of Superfund Post-Settlement Activities, noted that oversight costs
Conditions          were not billed or collected timely. Specifically, the Region had not
                    billed eight of ten sites for oversight costs incurred prior to FY 87.
                    Two of these sites were reviewed in our current audit and remain
                    unbilled even though oversight costs have significantly increased.

                    The Region responded that EPA oversight cost recovery was a low
                    priority due to resource constraints and high turnover, but would
                    devote additional attention to recovering such costs. Specifically, a
                    cost recovery coordinator was hired to coordinate issuance of
                    demand letters for oversight costs. Also, the Region was
                    completing oversight cost recovery documentation packages so
                    BFCs could be issued for the amounts identified in the report.

                    The Region’s response to the OIG’s Follow-up Review of Region
                    2's Corrective Actions - Oversight of Superfund Post Settlement
                    Activities (November 24, 1992) indicated they were continuing to
                    work to achieve the goal of annual issuance of oversight billings.




                                     -20-
                                                      Superfund Oversight Billings




CONCLUSION        GAO and OIG audit reports continuously cited late oversight
                  billings as an issue that must be addressed. Although the Region
                  recently developed initiatives to accelerate the timeliness of its
                  oversight billings, it must fully implement the steps and milestones
                  to achieve its goals. The Region must improve its overall
                  management control and tracking systems, devote the necessary
                  resources, and give a much higher priority to issuing timely and
                  accurate oversight bills in accordance with enforcement
                  agreements. Such actions will increase recovery of additional funds
                  to replenish the Superfund Trust Fund to clean-up other priority
                  sites.


RECOMMENDATIONS   We recommend that the Region 2 Administrator improve the
                  oversight billing management control system by:

                  2-1    Emphasizing oversight billings as a priority activity and
                         ensuring that all pending bills are issued by the end of FY
                         98. A quarterly reconciliation should be prepared,
                         backlogged BFCs addressed, and necessary actions taken.

                  2-2    Ensuring that future oversight costs are billed in accordance
                         with the enforcement agreements signed by the Region or
                         within 120 days of the anniversary date if the agreement is
                         silent as to billing requirements.

                  2-3    Modifying existing written oversight billing procedures to
                         include time frames for initiating, assembling, reviewing,
                         and issuing oversight bills by the participating offices
                         (ERRD, Finance and ORC).

                  2-4    Expediting implementation of the Superfund Oversight
                         Billing Tracking System (SOBTS) making it fully functional
                         and accessible to RPMs and other personnel involved in the
                         billing process.

                  2-5    Initiating and documenting periodic meetings between
                         ERRD, Finance and ORC officials involved in the oversight
                         process to improve coordination and timeliness between the

                                  -21-
                                                         Superfund Oversight Billings

                           offices.


REGION 2 RESPONSE   On June 23, 1998 Region 2 responded to the May 11, 1998 draft
                    report and agreed that it should endeavor to issue oversight bills on
                    a timely, regular basis. The Region has recently taken significant
                    steps to improve its record in this regard and plans on clearing the
                    backlog of old oversight billings by the conclusion of FY 98,
                    “except where case management enforcement strategies would be
                    compromised.” The Region began its oversight billing initiative on
                    November 1997. As of May 1998, 14 bills had been issued, 14
                    were subsumed in larger negotiations, three had no further costs to
                    be billed, and eight others will be addressed in FY 99 because of
                    enforcement strategy considerations.

                    The Region believes RPs have requested extensive documentation
                    “regardless of the length of the billing period” and it is incorrect
                    that documentation requests are a result of long billing periods.
                    Also, it is very common that RPs who are presented with very large
                    cost recovery claims seek EPA discussions and backup
                    documentation. However, the Region agrees its goal should be to
                    make timely cost reimbursement requests, provide accurate cost
                    recovery claims, and timely compile necessary supporting
                    documentation.

                    The Region disagreed that unbilled oversight amounts used for the
                    financial statement were inaccurate. SCORES reports were
                    provided to ERRD and ORC staff and were reviewed to determine
                    site-by-site unbilled oversight costs. These individuals then
                    certified the annual unbilled oversight costs.

                    The Region does not believe that untimely billings limited EPA’s
                    ability to timely cleanup priority sites, because “the Trust Fund has
                    had sufficient funds.” Also, there is no evidence that cleanups have
                    been limited as a result of delayed oversight billing.

                    The Region disagreed with recommendation 2-3 and believed
                    current oversight procedures were effective and did not require
                    timeframes for initiating, assembling, reviewing, and issuing bills.
                    The Region believed tracking of oversight bills should continue to
                    be handled on a site-by-site basis and monitored with the current


                                      -22-
                                                      Superfund Oversight Billings

                 tracking report. At the exit conference, ERRD officials stated that
                 once the backlog is gone, the Region expects to bill on an annual
                 basis. Regarding recommendation 2-5, the response stated that
                 meetings between ERRD, Finance and ORC are held, but minutes
                 are not recorded. However, action or follow-up items are
                 documented and tracked by ERRD.


OIG EVALUATION   We recognize that during FY 98 the Region made oversight billings
                 a higher priority and had made progress in reducing its substantial
                 backlog of unbilled costs. Also, recent improvements to the
                 tracking systems have assisted the Region’s efforts. However,
                 further improvements are needed.

                 The response outlined the Region’s billing efforts for FY 98, but
                 only addressed 39 of the approximate 80 backlogged sites (less than
                 50 percent). The remaining 41 sites will have to be addressed by
                 September 30, 1998. We recognize that other bills are in process,
                 but only 14 have been actually issued. Therefore, we believe the
                 Region will have difficulty in meeting its goal of clearing the
                 backlog of old enforcement oversight billings during FY 98. Also,
                 deferred billings for the 14 sites subsumed in larger negotiations are
                 contingent on reaching a settlement. Some previous settlement
                 negotiations have taken years and have not been resolved.

                 In many cases, the Region sends out bills without gathering
                 necessary supporting documentation that RPs might request. In
                 fact, the ERRD Director’s, May 12, 1998 Oversight Billing Plan
                 submitted to Headquarters states that, “We expect that a number of
                 bills will be challenged by the RPs, or that additional information
                 may be requested” (emphasis added).

                 For example, the Region sent a March 24, 1998 BFC in the amount
                 of $985,558 for the period May 29, 1985 to February 28, 1998
                 (about 13 years). However, the RP’s attorney immediately
                 requested cost documentation and an extension for repayment until
                 receipt of such documentation. EPA granted the RP an “indefinite”
                 extension pending the providing of such documentation. ORC
                 informed Finance that interest would be waived until after the
                 “indefinite” deadline. This example shows that the Region has not
                 met its goal of timely reimbursement requests with timely


                                  -23-
                                      Superfund Oversight Billings

submission of supporting documentation. It also show significant
amounts of lost interest that would have accrued to the Agency.

Although we agree that certain RPs may request extensive
documentation regardless of the length of the billing period, we
found it was much more common where billed amounts were larger
due to the extended periods. We concur that the Region’s goals
should include timely and accurate cost reimbursement requests
with timely compilation of supporting documentation.

While we agree the Region’s methodology for certifying annual
unbilled oversight costs should provide accurate amounts, in reality,
this was not always the case. As some ERRD and ORC individuals
indicated, there were some estimated amounts which included past
costs. One example is Site 1 where the Region determined the FY
97 year-end unbilled oversight amount to be $839,891. However,
as the Region acknowledged in its response, only $776,594 of
$894,801 billed in May 1998 was attributable to oversight.
Regional staff stated that similar situations existed with other sites.

The OIG, GAO and the EPA Administrator believe untimely
billings and delayed collections limited EPA’s ability to timely clean
up other sites. For example, GAO’s February 1997 Superfund
Program Management report (GAO/HR 97-14) determined this
program to be “high risk” because of waste, fraud, abuse and
mismanagement vulnerabilities. The report discussed EPA’s limited
recovery of cleanup costs from RPs, and the need of available funds
to address the magnitude of the nation’s hazardous waste problem.
Although cleaning up waste sites to protect the environment and
the public will cost the Federal government “hundreds of billions of
dollars”, EPA has only recovered from RPs a fraction of the monies
it has spent. Therefore, “it is essential that the government
replenish the Trust Fund by increasing to the
maximum extent its recovery of costs from the parties responsible
for cleaning up these sites.” (emphasis added)

Also, the Administrator’s September 4, 1997 Statement to the U.S.
Senate’s Committee on Environment and Public Works discussed
health effects associated with Superfund sites (i.e. birth defects,
cardiac disorders, changes in pulmonary function, impacts on the
immune system, infertility). To protect human health and the
environment the Administrator believed that action is needed that

                 -24-
                                     Superfund Oversight Billings

increases the pace of cleanups and improves program efficiency.
The Administration also remains concerned over expiration of
authority to replenish the diminishing Superfund Trust Fund. In
addition, the Congressional Budget Office projected that the Trust
Fund, at the end of the next fiscal year, will have less remaining
than needed to keep the program operating and to keep site
cleanups underway, in the following fiscal year.

EPA’s April 7, 1998 Plan for Achieving Timely Oversight Billing
Under CERCLA sent to all regions outlined its goal to be current in
oversight billing by September 30, 1998. The Plan stated that all
offices should work towards this goal and “maintain the fiscal
health and integrity of the Superfund program. Failing to bill on a
current basis jeopardizes the potential collection from RPs, thus
impairing future appropriations” (emphasis added).

There is always uncertainty about the amount of income that the
Trust Fund will earn, particularly from recoveries which flow into
the Fund on an uneven basis. The greater the amounts billed and
received from RPs, the greater the amounts that would be available
to fund the Superfund program for subsequent years. For example,
the availability of Fund resources from appropriations beyond FY
99 depends on the amounts made available to EPA for FY 99 and
recoveries and interest realized in FYs 98 and 99. The only thing
preventing EPA from addressing cleanups was the lack of funds.

Regarding recommendation 2-3, based on the Region’s prior
inability to issue BFCs timely, we strongly believe the institution of
certain timeframes is an important management control to assure
accountability for timely oversight billing. We also recognize there
is a need for some flexibility because site situations vary. Also,
such timeframes will provide accountability and feedback on the
success of such commitments.

ERRD officials provided the OIG with general timeframes for
certain actions. For example, Finance generally took 1 to 2½
weeks to get the first SCORES report. Finance later generated a
second SCORES report. Both reports are reviewed by the RPM.
Although the time to review the SCORES varied based on the
RPM’s familiarity with the site, the average time was 2 weeks.
However, it could take more than a month for a very complex site.
We believe these timeframes could be incorporated in the

                 -25-
                                            Superfund Oversight Billings

       procedures and used as a basis to measure performance.

       Two recent OIG audits of Regions 3 and 5 billings of oversight
       costs (See Exhibit 3) recommended and the Regions concurred with
       the need for specific timeframes for preparing, forwarding and
       reviewing annual oversight bills to ORC, the program office and
       RPs for payment. The Region 5 Administrator stated that specific
       timeframes for preparing and reviewing oversight billings will be
       included in a Superfund Cost Recovery Memorandum of
       Understanding. Also, the Superfund Cost Recovery Taskforce
       workgroup will “add new timeframes to effect more timely
       billings.” Additionally, specific timeframes “will enhance our
       ability to timely execute the complex billing process and meet the
       performance guidelines.”

       The Region 3 Administrator’s response concurred with the OIG
       recommendation. He stated procedures had been prepared to bill
       future oversight costs, specifying specific timeframes for Finance,
       the Superfund program office and ORC to initiate, assemble, and
       issue an oversight bill. Also, a joint memorandum from the three
       Regional offices outlined the procedures to document the oversight
       billing process and specified how long it should take all three
       offices to perform all tasks to issue an oversight bill. The
       memorandum also stated that the three office’s personnel meet
       regularly to discuss the status of all sites and costs to be billed.

       Regarding recommendation 2-5, we also believe that periodic
       meetings between the three offices should be held and items
       discussed, conclusions or decisions made, and follow-up action
       fully documented.

       Finance officials indicated that informal oversight billings meetings
       were held with ERRD (about five times per year). However, there
       was no set schedule, minutes were not taken, and actions were
       based on verbal agreements. Conducting regular meetings between
       ERRD, Finance and ORC could be an effective management tool to
       assure a coordinated, informed effort. Minutes


should be taken to provide evidence of the topics discussed, problems
noted, actions in process, additional actions needed and timeframes, person
responsible for actions and necessary follow up. Copies of the minutes

                        -26-
                                             Superfund Oversight Billings

should be distributed to all participants.




                         -27-
                                Superfund Oversight Billings




This Page Was Intentionally Left Blank.




                 -28-
                                                        Superfund Oversight Billings

                             CHAPTER 3

                          OTHER MATTERS


Initiative to      On October 2, 1995, the Administrator announced several new
Reduce Oversight   Superfund reforms including an initiative to encourage and reward
Activities         cooperative parties by reducing EPA oversight activities. In a July
                   31, 1996 memorandum (OSWER Directive No. 9200.4-15), EPA
                   Headquarters provided examples of oversight monitoring activities
                   that should be considered for reduction depending upon site
                   circumstances. These examples included items such as reducing the
                   number of field visits to observe routine activities or taking fewer
                   split samples at the site. The memorandum also:

                   •      Referred to a list of 100 sites with cooperative and capable
                          parties, where the Regions had already reduced or had plans
                          to reduce oversight.

                   •      Explained EPA’s overall goal for a nationwide 25%
                          reduction in oversight costs over the next year at these 100
                          sites.

                   •      Stipulated that the Regions should immediately evaluate all
                          sites to identify where oversight could be reduced without
                          reducing protection.

                   •      Detailed that RPs receive a summary of oversight
                          reductions with their annual bill. Regions also should report
                          estimates of how much oversight has been reduced at sites
                          (i.e. number of sites, activities reduced, and estimates of
                          costs saved).

                   •      Required that RPs receive an estimate of oversight costs for
                          the next year, at the time of annual billing.

                   The memorandum also stated that reductions in oversight activities
                   should be implemented as soon as possible. Also, for FY 96, the
                   site manager for each identified site under this reform should report
                   oversight activities that have been eliminated or reduced.



                                    -29-
                                                            Superfund Oversight Billings

Region 2 Activities   Region 2 previously identified six candidates for reduction of
                      oversight monitoring and informed the RPs of this action. Also,
                      four additional candidates were identified in FY 98. However,
                      Regional officials could not provide evidence that any specific cost
                      reduction amounts had occurred at these sites. While other
                      Regions have already reduced oversight activities in compliance
                      with the Directive, Region 2 has not reported required oversight
                      reductions (estimates of costs saved). Additionally, Region 2 needs
                      to improve its process to ensure that all RPs are provided with an
                      estimate of oversight costs for the next year.

                      The impact of reduced oversight administration reform is difficult
                      to assess for several reasons including lack of accurate information
                      regarding specific site reductions. Also, there is no defined level of
                      the amount of oversight EPA is to perform, which makes it difficult
                      to identify what qualifies as a reduction in oversight. In addition, it
                      is often difficult to quantify the value of oversight activities EPA
                      does not perform. During FY 98, the Region and Headquarters are
                      working to develop methods for measuring specific oversight
                      reductions for different sites.




                                       -30-
                                                        Superfund Oversight Billings




                    REGION 2 SUPERFUND OVERSIGHT BILLINGS                     Exhibit 1
                            SAMPLED SITES - NO BILLINGS

      Document                                                   Payment    Unbilled
 Site Billing       Effective   Amount       Bill      Period    Amt. &     Amount
Name Terms            Date       Billed      Date     Covered     Date      9/30/97

 1.   AOC, (A)      05/27/88     NA              NA     NA         NA       $839,891
 2.   AOC, (P)      09/27/89     NA              NA     NA         NA       $909,332
      CD, (P)       07/23/90     NA              NA     NA         NA
 3.   AOC, (A)      10/08/87     NA              NA     NA         NA       $950,170
 4.   AOC, (A)      06/07/88     NA              NA     NA         NA       $702,422
      AOC, (S)      05/07/93     NA              NA     NA         NA
 5.   AOC, (P)      06/28/93     NA              NA     NA         NA      $1,043,676
      A= Annual                                                            $4,445,491
      P= Periodic
      S= Silent




                                          -31-
                                                              Superfund Oversight Billings

                    REGION 2 SUPERFUND OVERSIGHT BILLINGS                            Exhibit 2
                       SAMPLED SITES - PARTIAL BILLINGS

      Document                                                          Payment    Unbilled
 Site Billing       Effective     Amount         Bill        Period     Amt. &     Amount
Name Terms            Date         Billed        Date       Covered      Date      9/30/97

 A.   AOC, (P)      06/02/89       $622,370   05/13/96   1989 to 1996                N/A
                                          (R) 07/10/96
 B.   CD, (A)       11/28/89     $443,939    04/04/95    1989 to 1996   $58,020    $42,548
                             (R) $488,869 (R) 07/11/96                  09/30/96
 C.   AOC, (A)      04/30/86     $468,743      02/5/91   1986 to 1990   $145,000   $297,133
                             (R) $445,806                               06/28/91
 D.   AOC, (S)      06/30/89     $137,572     03/13/96   1989 to 1993                N/A
 E.   AOC, (S)      09/28/90     $467,481     02/26/96   1990 to 1994                N/A
                             (R) $437,481 (R) 04/22/96                   _______ ___________
      A= Annual                                                         $203,020 $339,681
      P= Periodic               R= Revised/
                                Resent
      S= Silent




                                              -32-
                                                                Superfund Oversight Billings

                                                                                       Exhibit 3

                         Previous OIG and GAO Audit Reports


•   OIG Audit Report E5FFL7-03-0008-7100292, Region 3's Billing of Superfund Oversight
    Costs, (September 22, 1997) found that Region 3 took, in some cases, years to bill RPs
    for oversight costs.

•   OIG Audit Report E1AMF6-05-0079-7100139, Region 5's Billing and Collection of
    Account Receivables, (March 27, 1997) discussed billing and collecting of oversight costs
    problems in Region 5.

•   OIG Audit Report E1SFB5-11-0008-6400016, Major Delays in Superfund Cleanups
    Increased Costs and Potential Health Risks, (November 29, 1995) discussed: (a) a Region
    8 site where the RP used a three-year delay in billing to negotiate a reduction in the bill;
    and (b) a Region 3 site where there was a two-year billing delay.

•   OIG Special Review E1SJG2-02-5000-3400005, Follow-up Review of Region 2's
    Corrective Actions Regarding Oversight of Superfund Post Settlement Activities,
    (November 24, 1992) noted continuing weaknesses in billing and collecting oversight
    costs.

•   OIG Audit Report E1SJC9-02-0055-0100230, Review of Region 2's Oversight of
    Superfund Post-Settlement Activities, (March 29, 1990) noted oversight costs that were
    not billed and collected in a timely manner.

•   GAO Audit Report, System Enhancements Could Improve the Efficiency of Cost
    Recovery (GAO/AIMD-95-177, August 1995) outlined concerns over EPA’s poor
    recovery rate due to poor information systems.

•   OIG Audit Report E1AML7-20-7008-8100058, EPA’s Fiscal 1996 and 1997 Financial
    Statements, (March 2, 1998) indicated that the Agency’s accounting for unbilled
    Superfund oversight costs needed improvement. Until billings are prepared, reimbursable
    costs incurred since the last billing were not recorded as assets in accounting records.
    Also, certain Regional estimates of unbilled costs were unreliable. EPA’s Acting Chief
    Financial Officer agreed that the timeliness of the Agency oversight billing as well as the
    methodology for estimating oversight amounts needed improvement.




                                            -33-
                                 Superfund Oversight Billings




This Page Was Intentionally Left Blank.




                 -34-
                                                                     Superfund Oversight Billings


                                                                                          Appendix B

                                          DISTRIBUTION


Office of Inspector General

Acting Inspector General (2410)
Deputy Assistant Inspector General for Internal Audits (2421)
Divisional Inspectors General

EPA Headquarters Office

Assistant Administrator for Solid Waste and Emergency Response (5101)
Agency Audit Follow-up Official (2710)
Agency Follow-up Coordinator (2724)
Director, Policy and Program Evaluation Division, Office of Site Remediation Enforcement (2273A)
Associate General Counsel, Solid Waste and Emergency Response Law Office (2366)
Associate Administrator for Congressional and Legislative Affairs (1301)
Associate Administrator for Communications, Education and Public Affairs (1701)

Region 2

Regional Administrator
Assistant Regional Administrator for Policy and Management
Director, Emergency and Remedial Response Division
Director, Financial Management Branch
Regional Counsel
